<html>
<title> - CYBER ESPIONAGE AND THE THEFT OF U.S. INTELLECTUAL PROPERTY AND TECHNOLOGY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
    CYBER ESPIONAGE AND THE THEFT OF U.S. INTELLECTUAL PROPERTY AND 

                               TECHNOLOGY
=======================================================================



                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2013

                               __________

                           Serial No. 113-67


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
86-391                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana                  Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
CORY GARDNER, Colorado               BRUCE L. BRALEY, Iowa
MIKE POMPEO, Kansas                  PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
PHIL GINGREY, Georgia                BEN RAY LUJAN, New Mexico
STEVE SCALISE, Louisiana             EDWARD J. MARKEY, Massachusetts
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
PETE OLSON, Texas                    G.K. BUTTERFIELD, North Carolina
CORY GARDNER, Colorado               KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 GENE GREEN, Texas
RENEE L. ELLMERS, North Carolina     JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     6
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................     8
Hon. Henry A. Waxman, a Representative in Congress from the state 
  of California, opening statement...............................     8

                               Witnesses

Slade Gorton, Former U.S. Senator from Washington State, 
  Commission Member, Commission on the Theft of American 
  Intellectual Property..........................................    10
    Prepared statement...........................................    12
    Answers to submitted questions...............................    82
Larry M. Wortzel, Ph.D., Commissioner, U.S.-China Economic and 
  Security Review Commission.....................................    15
    Prepared statement...........................................    17
    Answers to submitted questions...............................    90
James A. Lewis, Director and Senior Fellow, Technology and Public 
  Policy Program, Center for Strategic and International Studies.    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................    98
Susan Offutt, Chief Economist, Applied Research and Methods, 
  Government Accountability Office...............................    44
    Prepared statement...........................................    46
    Answers to submitted questions...............................   106

                           Submitted Material

Letter of July 9, 2013, from Cyber Secure America Coalition to 
  the subcommittee, submitted by Mr. Murphy......................    76
Letter of July 9, 2013, from Cyber Secure America Coalition to 
  the subcommittee, submitted by Ms. DeGette.....................    79


    CYBER ESPIONAGE AND THE THEFT OF U.S. INTELLECTUAL PROPERTY AND 
                               TECHNOLOGY

                              ----------                              


                         TUESDAY, JULY 9, 2013

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2123, Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Present: Representatives Murphy, Burgess, Blackburn, 
Scalise, Olson, Gardner, Johnson, Long, Ellmers, Upton (ex 
officio), Braley, Schakowsky, Tonko, Green, and Waxman (ex 
officio).
    Staff Present: Carl Anderson, Counsel, Oversight; Sean 
Bonyun, Communications Director; Matt Bravo, Professional Staff 
Member; Megan Capiak, Staff Assistant; Karen Christian, Chief 
Counsel, Oversight; Patrick Currier, Counsel, Energy & Power; 
Andy Duberstein, Deputy Press Secretary; Brad Grantz, Policy 
Coordinator, O&I; Sydne Harwick, Staff Assistant; Brittany 
Havens, Staff Assistant; Sean Hayes, Counsel, O&I; Andrew 
Powaleny, Deputy Press Secretary; Peter Spencer, Professional 
Staff Member, Oversight; Brian Cohen, Minority Staff Director, 
Oversight & Investigations, Senior Policy Advisor; Kiren Gopal, 
Minority Counsel; and Hannah Green, Minority Staff Assistant.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good morning. I convene this hearing of the 
Subcommittee on Oversight and Investigations entitled ``Cyber 
Espionage and the Theft of U.S. Intellectual Property and 
Technology. In the last several months, there have been 
increasing reports of cyber espionage and its toll on U.S. 
businesses and the economy. In March, Thomas Donilon, the 
National Security Advisor to the President, addressed the issue 
of cyber espionage and the theft of U.S. Intellectual property, 
or IP, and technology, particularly in China. Mr. Donilon 
stated that IP and trade secrets ``have moved to the forefront 
of our agenda. Targeted theft of confidential business 
information and proprietary technologies through cyber 
intrusions emanating from China occurs on an unprecedented 
scale. The international community cannot afford to tolerate 
such activity from any country.''
    In June, President Obama raised this issue with the Chinese 
president during a summit in California, and I thank him for 
pushing this issue so critically important to U.S. jobs. Just 2 
weeks ago, the Council on Foreign Relations released a report 
finding that U.S. oil and natural gas operations are 
increasingly vulnerable to cyber attacks and that these attacks 
damage the competitiveness of these companies. The victims go 
beyond the energy industry, though. A recent report by a cyber 
security consulting firm documented the Chinese People 
Liberation Army's direct involvement with cyber attacks and 
espionage into 141 companies, including 115 in the U.S. across 
20 industries.
    Three years ago, Chinese military hackers infiltrated the 
Pittsburgh location of QinetiQ, a manufacturer of high tech 
robotic systems, like the remotely-controlled devices used to 
diffuse IEDs. Experts believe the Chinese hackers may have 
stolen from QinetiQ's proprietary chip architecture, allowing 
the PLA to take over or defeat U.S. military robots and aerial 
drones. From defense contractors to manufacturers, no American 
company has been immune from the scourge of Chinese 
intellectual property theft.
    In January, two Chinese citizens were convicted for 
attempting to steal trade secrets from a Pittsburgh Corning 
plant in order to build a rival factory in China. Cyber 
espionage has obvious implications for national security, 
foreign relations, and the American economy.
    The IP Commission, which Senator Slade Gorton represents 
today, recently published a report on the theft of intellectual 
property and estimated that it costs the U.S. economy over $300 
billion a year, which translates roughly to 2.1 million lost 
jobs. To put this in perspective, the IP Commission found that 
the total cost of cyber theft was comparable to the amount of 
U.S. exports to Asia. General Keith Alexander, the director of 
the National Security Agency called cyber crime and the 
resulting loss of our intellectual property and technology to 
our competitors ``the greatest transfer of wealth in U.S. 
history.''
    The purpose of this hearing is to understand how this loss 
is happening, the cost to our country, and how companies and 
the U.S. government are responding to this threat. The 
testimony of the IP Commission and the U.S.-China Commission 
make clear that the People's Republic of China is the most 
predominant and active source of cyber espionage and attacks. 
China, while the main source, is not the only one. The Office 
of the National Counter Intelligence Executive states Russia, 
too, is aggressively pursuing U.S. IP and technology.
    The witnesses today will explain the methods and tactics 
used to penetrate U.S. cyber systems and what China and other 
perpetrators do with the information they obtain through these 
attacks. Counterfeiting of U.S. products and technologies is 
often an unfortunate result of cyber espionage attacks. In an 
op-ed submitted to the Washington Post, Admiral Dennis Blair, 
former Director of National Intelligence, and Jon Huntsman, 
Jr., the former Ambassador to China, explain how the 
counterfeiting of a U.S. product by a foreign company resulted 
in the foreign company's becoming the largest competitor to 
that U.S. company.
    Ultimately, the U.S. company's share price fell 90 percent 
in just 6 months. Just last month, Federal prosecutors secured 
an indictment against Sinovel, a Chinese wind turbine company, 
for stealing source code for small industrial computers used in 
wind turbines for a U.S. business, American Semiconductor 
Company. The CEO of American Semiconductor remarked on the 
reported $1 billion loss in market value his company suffered 
as a result of this theft, stating ``If your ideas can be 
stolen without recourse, there is no reason to invest in 
innovation. There is no purpose to the American economy.''
    So I'd like to thank the witnesses today. First, we have 
the Honorable Slade Gorton, the former Senator from the State 
of Washington, and currently a Commission member of the 
Commission on the Theft of American Intelligence Property. 
Joining him is an expert on cyber security and Chinese foreign 
policy, the Honorable Larry Wortzel, Ph.D., who is a 
Commissioner on the U.S.-China Economic and Security Review 
Commission; Dr. James Lewis, Ph.D., a Senior Fellow and 
Director of the Technology and Public Policy Program at the 
Center for Strategic International Studies; and Susan Offutt, 
Chief Economist for the Applied Research and Methods with the 
General Accountability Office.
    We invited a spokesman from the White House and the 
administration to join us today, but they informed the 
committee that they would respectfully decline its invitation. 
It is unfortunate that the administration wasn't able to take 
this opportunity to join us and testify, given the importance 
of this issue and the priority the administration has given it 
during recent talks with the Chinese president. That invitation 
remains open for them to meet with us.
    So with that, I recognize the ranking member, Ms. 
Schakowsky, who is now sitting in for--by designation for Ms. 
DeGette. You are recognized for 5 minutes.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    In the last several months, there have been increasing 
reports of cyber espionage and its toll on U.S. businesses and 
the economy. In March, Thomas Donilon, the National Security 
Advisor to the President, addressed the issue of cyber 
espionage and the theft of U.S. intellectual property, or 
``IP,'' and technology, particularly by China. Mr. Donilon 
stated that IP and trade secrets ``have moved to the forefront 
of our agenda...targeted theft of confidential business 
information and proprietary technologies through cyber 
intrusions emanating from China [occurs] on an unprecedented 
scale. The international community cannot afford to tolerate 
such activity from any country.'' In June, President Obama 
raised this issue with the Chinese President during a summit in 
California.
    Just 2 weeks ago, the Council on Foreign Relations released 
a report finding that U.S. oil and natural gas operations are 
increasingly vulnerable to cyber attacks, and that these 
attacks damage the competitiveness of these companies. The 
victims go beyond the energy industry, though. A recent report 
by a cybersecurity consulting firm documented the Chinese 
People Liberation Army's direct involvement through cyber 
attacks and espionage into 141 companies, including 115 in the 
U.S., across 20 industries.
    Three years ago, Chinese military hackers infiltrated the 
Pittsburgh location of QinetiQ, a manufacturer of high-tech 
robotic systems like the remotely-controlled devices used to 
diffuse IEDs. Experts believe the Chinese hackers may have 
stolen from QinetiQ's proprietary chip architecture, allowing 
the PLA to take over or defeat U.S. military robots and aerial 
drones.
    From defense contractors to manufacturers, no American 
company has been immune from the scourge of Chinese 
intellectual property theft. In January, two Chinese citizens 
were convicted for attempting to steal trade secrets from a 
Pittsburgh Corning plant in order to build a rival factory in 
China.
    Cyber espionage has obvious implications for national 
security, foreign relations, and the American economy. The 
Commission, which Senator Slade Gorton represents today, 
recently published a report on the theft of intellectual 
property and estimated that it costs the U.S. economy over $300 
billion a year, which translates into roughly 2.1 million lost 
jobs. To put this in perspective, the IP Commission found that 
the total cost of cyber theft was comparable to the amount of 
U.S. exports to Asia. General Keith Alexander, the director of 
the National Security Agency, called cyber crime, and the 
resulting loss of our intellectual property and technology to 
our competitors, ``the greatest transfer of wealth in 
history.''
    The purpose of this hearing is to understand how this loss 
is happening, the cost to our country, and how companies and 
the U.S. government are responding to this threat. The 
testimony of the IP Commission and the U.S.-China Commission 
make clear that the People's Republic of China is the most 
predominant and active source of cyber espionage and attacks. 
China, while the main source, is not the only one. The Office 
of the National Counterintelligence Executive (ONCIX) states 
Russia, too, is aggressively pursuing U.S. IP and technology.
    The witnesses today will explain the methods and tactics 
used to penetrate U.S. cyber systems, and what China and other 
perpetrators do with the information they obtain through these 
attacks. Counterfeiting of U.S. products and technologies is 
often an unfortunate result of cyber espionage attacks. In an 
op-ed submitted to the Washington Post, Admiral Dennis Blair, 
former director of national intelligence, and Jon Huntsman, 
Jr., the former ambassador to China, explained how the 
counterfeiting of a U.S. product by a foreign company resulted 
in the foreign company becoming the largest competitor to that 
U.S. company. Ultimately, the U.S. company's share price fell 
90 percent in just 6 months.
    Just last month, federal prosecutors secured an indictment 
against Sinovel, a Chinese windturbine company, for stealing 
source code for small industrial computers used in wind-
turbines for a U.S. business, American Semiconductor Company. 
The CEO of American Semiconductor remarked on the reported $1 
billion loss in market value his company suffered as a result 
of this theft, stating, ``...If your ideas can be stolen 
without recourse, there is no reason to invest in innovation, 
there is no purpose to the American economy.''
    I would like to thank the witnesses. First, we have the 
Honorable Slade Gorton the former Senator from the State of 
Washington and currently a Commission Member on the Commission 
on the Theft of American Intellectual Property. Joining him is 
an expert on cyber security and Chinese foreign policy, the 
Honorable Larry M. Wortzel, Ph.D., who is a Commissioner on the 
U.S.-China Economic and Security Review Commission; Dr. James 
Lewis, Ph.D. a senior fellow and director of the Technology and 
Public Policy Program at the Center for Strategic and 
International Studies (CSIS); and Susan Offutt, Chief Economist 
for Applied Research and Methods with the General 
Accountability Office.
    We invited a spokesperson from the White House and the 
administration to join us today, but they informed the 
committee that they would respectfully decline its invitation. 
It is unfortunate that the administration did not take this 
opportunity to join us and testify given the importance of this 
issue and the priority the administration has given it during 
its recent talks with the Chinese President.

                                #  #  #

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. Before I begin, 
let me give a special welcome to Senator Gorton, who I 
understand grew up in my hometown of Evanston, Illinois, which 
I now have the pleasure of representing, and to welcome you and 
all the other witnesses here today.
    The President, in his State of the Union address this year, 
said ``Our enemies are seeking the ability to sabotage our 
power grid, our financial institutions, and our air traffic 
control systems.'' And the President's right. And that is why I 
am so glad that we're having today's hearing to learn about the 
impact of cyber espionage, the theft of intellectual property, 
and the threat that they pose to our economy and national 
security.
    The GAO has indicated that ``The theft of U.S. intellectual 
property is growing and is heightened by the rise of digital 
technologies.'' The Obama Administration has taken a leading 
role in the effort to root out cyber threats. The President's 
cyberspace policy review identified and completed 10 near-term 
actions supporting our Nation's cyber security strategy. The 
Department of Homeland Security has created a cyber security 
incident response plan; the National Institute of Standards and 
Technology in 7 months is expected to publish voluntary 
standards for operators of our Nation's critical infrastructure 
that will help mitigate the risks of cyber attacks.
    The private sector has also taken steps independently to 
root out cyber threats and increased communication about best 
practices for combating malicious attacks. Those public and 
private sector efforts have strengthened Americans' defenses 
and protected our critical infrastructure and intellectual 
property. We know that foreign actors are seeking access to 
American military intelligence and corporate trade secrets. 
China, Russia, and other countries continue to deploy 
significant resources to gain sensitive proprietary information 
via cyber attacks.
    While I strongly believe we need to address cyber security 
concerns, I did vote against the Cyber Intelligence Sharing and 
Protection Act. I believe the bill, though improved from the 
last Congress, does an inadequate job of defending the privacy 
rights of ordinary Americans. We can't compromise our civil 
liberties in exchange for a strong defense against cyber 
attacks. We need a better balance, and I'm committed to working 
toward that end. We will hear today from Larry Wortzel----
    Am I saying that right?
    Mr. Wortzel. Yes.
    Ms. Schakowsky. A member of the U.S.-China Economic and 
Security Review Commission, that China is. And I quote, ``Using 
its advanced cyber capabilities to conduct large-scale cyber 
espionage, and China has compromised a range of U.S. networks, 
including those at the Department of Defense, defense 
contractors, and private enterprises.''
    Mr. Wortzel's testimony provides examples of those 
intrusions, thousands of targeted attacks on DOD network, a 
case where hackers gained full functional control--that's a 
quote--over the NASA Jet Propulsion Lab network, and Chinese 
cyber attacks on the major contractors for the F-35 joint 
strike fighters. It describes a U.S. super computer company 
that was devastated when its high-tech secrets were stolen by a 
Chinese--a Chinese company, and it highlights the Night Dragon 
operation, where multiple oil, energy, and petrochemical 
companies were targeted for cyber attacks, that gave outside 
hackers access to executive accounts and highly sensitive 
documents for several years.
    Mr. Chairman, we cannot take these problems lightly. I know 
you don't. They cost our economy billions of dollars and places 
our national security at risk. And as the number of Internet-
connected devices and the use of cloud computing increases, the 
number of entry points for malicious actors to exploit will 
also rise. With more information and more sensitive information 
now stored on the Web, we must sharpen our focus on cyber 
security. I hope to hear more from our witnesses today about 
this immense challenge and how the private sector and 
government entities can become more cyber resilient. And with 
that, I yield back, Mr. Chairman.
    Mr. Murphy. Gentlelady yields back. Now to the chairman of 
the full committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. Today's hearing 
continues the Energy and Commerce Committee's oversight of 
cyber threats and cybersecurity. This committee has 
jurisdiction over a number of industries and sectors that have 
long been the target of cyber attacks and espionage, including 
the oil and gas industry, the electric utility industries, the 
food services and pharmaceuticals industries, information 
technology, telecommunications, and high-tech manufacturing. 
Just last May, Vice Chair Blackburn convened a full committee 
hearing to examine the mounting cyber threats to critical 
infrastructure and efforts to protect against them.
    Today we're going to focus on the damaging cost to U.S. 
industry when the efforts of foreign nations and hackers to 
steal U.S. technology and intellectual property are successful. 
American innovation and intellectual property are the 
foundations of our economy. Based on government estimates from 
2010, intellectual property accounted for $5 trillion in value, 
added to the U.S. economy are 34 percent of U.S. GDP. When 
foreign nations are able to infiltrate networks and take our 
technology and proprietary business information to benefit 
their own companies, U.S. firms certainly lose their 
competitive advantage. The IP Commission, on whose behalf we 
welcome former Senator Slade Gorton's testimony this morning, 
has translated the cost of these attacks into hard numbers.
    As Chairman Murphy mentioned, this theft costs the U.S. 
over 300 billion a year, over 2 million jobs that are lost. And 
if our IP is being targeted, U.S. Jobs are being targeted, and 
this has got to stop. I'm especially interested in learning 
more from today's witnesses about the growing threat, how the 
U.S. Government is combating it, and what American job creators 
themselves can do to protect against the theft of their 
intellectual property. We're going to continue our efforts to 
protect our nation from the ever-growing cyber threat. It is an 
issue that commands and demands our immediate attention. And I 
yield the balance of my time to Ms. Blackburn.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today's hearing continues the Energy & Commerce Committee's 
oversight of cyber threats and cyber security. This committee 
has jurisdiction over a number of industries and sectors that 
have long been the target of cyber attacks and espionage, 
including the oil and gas industry, the electric utility 
industries, the food services and pharmaceuticals industries, 
information technology and telecommunications, and hightech 
manufacturing. Just last May, Vice Chairman Blackburn convened 
a full committee hearing to examine the mounting cyber threats 
to critical infrastructure and efforts to protect against them.
    Today, we focus on the damage and costs to U.S. industry 
when the efforts of foreign nations and hackers to steal U.S. 
technology and intellectual property are successful. American 
innovation and intellectual property are the foundations of our 
economy. Based on government estimates from 2010, intellectual 
property accounted for $5.06 trillion in value added to the 
U.S. economy or 34.8 percent of U.S. GDP. When foreign nations 
are able to infiltrate networks and take our technology and 
proprietary business information to benefit their own 
companies, U.S. firms lose their competitive advantage. The IP 
Commission, on whose behalf we welcome former Senator Slade 
Gorton's testimony this morning, has translated the costs of 
these attacks into hard numbers: as Chairman Murphy mentioned, 
this theft costs the United States over $300 billion a year, 
and 2.1 million lost jobs. If our IP is being targeted, U.S. 
jobs are being targeted, and this must stop.
    I am especially interested in learning more from today's 
witnesses about this growing threat; how the U.S. government is 
combatting it; and what American job creators themselves can do 
to protect against the theft of their intellectual property.
    We will continue our efforts to protect our nation from the 
ever-growing cyber threat. It is an issue that commands and 
demands our immediate attention.

                                #  #  #

    Mrs. Blackburn. I thank the chairman. I welcome each of 
you. And as you can hear from the opening statements, we all 
agree that every single employer in this country has the 
potential of being harmed by cyber attacks. We realize that and 
we know it is a problem that has to be addressed. And I thank 
Chairman Murphy for calling the hearing today. Cyber espionage, 
hacking, stealing trade secrets is an escalating activity, and 
we need to put an end to this. I also believe that in 
addressing our cyber security challenges, we need to expand the 
scope of our efforts to address the related issue of IP theft. 
As both Chairman Murphy and Upton have said, it is over $300 
billion a year in what it costs our economy. And this is a cost 
that becomes more expensive for us every year as the problem 
grows.
    Countries like China and Russia are engaging in wholesale 
commercial espionage. They are intentionally taking advantage 
of U.S. technology and creativity for their own competitive 
advantages. It is an economic growth strategy for them, but 
it's a jobs killer, a national security threat, and a privacy 
nightmare for Americans. I've offered a discussion framework, 
the Secure IT Act, that provides our Government, business 
community, and citizens with the tools and resources needed to 
protect us from those who wish us harm. It would help us 
respond to those who want to steal our private information, it 
better protects us from threats to both our Government systems 
and to the private sector without imposing heavy-handed 
regulations that would fail to solve these persistent, dynamic, 
and constantly evolving changes that we are facing. With that, 
I yield the balance of my time to Dr. Burgess.
    Mr. Burgess. I thank the gentlewoman for yielding. I'll 
submit my full statement to the record. I do want to address an 
issue that may be a little bit outside the purview of the 
panelists today. But, Mr. Chairman, I do hope we'll devote some 
time to this at some point. Individuals, of course, have 
limited liability; if our credit card numbers are stolen by a 
bad actor or a criminal, there is a limit to the amount that 
that fraudulent transfer can be. But that's not true for our 
small businesses in this country. And I'm thinking particularly 
of the doctor's office, the dentist's office, the CPA, the 
small law firm who may have their--in fact, in health care, 
we're required now to do electronic transfers for Medicare and 
for other activities. There is no limit of liability to those 
small practices. If their information is hacked and stolen, no, 
it's not going to be by on sovereign nation, it's going to be 
by a criminal. But, nevertheless, they are hacked and the 
information is stolen. Sensitive patient data or customer data 
then is retrieved by the bad actor.
    I hope we will address at some point the ability to limit 
the liability of those small practices when, in fact, they are 
only doing what they have been required to do by the Federal 
Government and the Medicare system.
    Thank you, Mr. Chairman. I'll yield back the balance of the 
time.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Thank you, Mr. Chairman.
    One of the largest threats facing our nation today is that 
of cyber-security and espionage from a variety of sources. 
Indeed, top national security advisors have recently stated 
that cyber-security was the number one danger to the United 
States - even going so far as to supplant terrorism as a 
greater threat.
    The constant threat of cyber-security and espionage target 
not just our nation's defenses, but also sensitive personal and 
proprietary information. All kinds of American businesses are 
targeted for their trade secrets, business plans and sensitive 
data. And, unfortunately, many times, the bad actors are 
successful.
    This is a stark contrast from before where our state 
secrets were only being targeted. Experts' estimate that the 
annual private sector loss from cyber-attacks to be in the tens 
of billions of dollars. In fact, NSA Director Gen. Keith 
Alexander has stated that the stealing of U.S. private company 
information and technology has resulted in the "greatest 
transfer of wealth in history." To make matters worse, these 
cyber-attacks seem to be only growing in number and many 
predict that the intensity and number of attacks will increase 
significantly throughout the coming years.
    The importance of intellectual property in the U.S. economy 
cannot be overstated. In 2010, IP accounted for $5 trillion in 
value or 34% of U.S. GDP. IP also has accounted for over 60% of 
all US exports and independently created tens of millions of 
jobs. Needless to say, the interconnectivity between IP 
protection and workforce security is paramount.
    This hearing could not come at a more appropriate time. 
Yesterday marked the first meeting of a U.S.-China cyber-
security working group. This is an important first step to 
enable each side to share perspectives on pertinent laws and 
norms in cyberspace. I hope that the outcome of this hearing, 
as well as those discussions, will be to shed light on a 
growing threat because the unwarranted and unprovoked theft of 
U.S. private and public intellectual property has to stop.
    Thank you, Mr. Chairman and I yield back.

    Mr. Murphy. Gentleman yields back. Mr. Waxman recognized 
for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. I am pleased 
that we're here today to discuss the problem of cyber espionage 
and theft of U.S. intellectual property. Cyber espionage 
damages our economy and places national security at risk. The 
threats posed by cyber espionage are growing, particularly from 
foreign actors. Numerous reports have noted that the Chinese 
government is the chief sponsor of hacking activity directed at 
sensitive military information and lucrative corporate trade 
secrets. The Department of Defense reported that in 2012, 
computer systems including those owned by the U.S. Government 
were targeted directly thousands of times by the Chinese 
government and military. The New York Times reported that more 
than 50 sensitive U.S. technologies and advanced weapons 
systems, including the Patriot Missile System, had been 
compromised by Chinese hackers.
    The computer security consultant Mandiant reported over a 
hundred instances of network intrusions affecting key 
industries and industry leaders located in the United States 
originating from one building in Shanghai. Even an iconic 
American company, Coca-Cola, had key corporate documents 
exposed by Chinese hackers, compromising a multi-billion dollar 
acquisition. Thankfully, they did not get the formula. My ad 
lib.
    The White House recognizes the seriousness of the threat 
and has been leading the response. Over the past 3 years, law 
enforcement has significantly increased against infringement 
that threatens our economy. Trade secret cases are up, DHS 
seizures of infringing imports have increased, and FBI health-
and-safety-focused investigations are up over 300 percent. And 
in February, President Obama signed an executive order to 
strengthen the cyber security of our critical infrastructure 
and direct DHS to share threat information with U.S. 
businesses. And just last month, the administration released a 
new strategic plan for intellectual property enforcement. But 
the administration needs Congress's help, and we are not 
delivering. Earlier this year, the House passed a Cyber 
Intelligence and Sharing Protection Act. This is a flawed bill 
that relies on a purely voluntary approach. It sets no 
mandatory standards for industry, yet it would give companies 
that share information with the government sweeping liability 
protection. The legislation also fails to safeguard the 
personal information of Internet users.
    The bill is now pending in the Senate. I hope the Senate 
comes up with an acceptable compromise. I want to pass a law 
that improves our ability to prevent cyber attacks while 
adequately protecting the privacy of individuals' data. Cyber 
attacks jeopardize our economic and national security, they 
threaten key defense technologies, they can impact basic 
infrastructure like our power grid and traffic control systems, 
and they can endanger innovation by America's leading 
corporations. That's why we must have a comprehensive and 
nimble strategy to mitigate against risks of cyber attacks. The 
White House, the private sector, and Congress must each do its 
part.
    I look forward to hearing from our witnesses today about 
what more we can do to address the serious threats posed by 
cyber espionage. Thank you, Mr. Chairman. Yield back the 
balance of my time.
    Mr. Murphy. Gentleman yields back. Thank you.
    And I already introduced the witnesses, so I don't need to 
go through those again, but we thank them all for being here. 
To the witnesses, you are aware that the committee is holding 
an investigative hearing. When doing so, has a practice of 
taking testimony under oath. Do you--any of you have any 
concerns or objections to testifying under oath?
    No. None, OK. Thank you.
    The chair, then, advises you that under the rules of House 
and the rules of committee, you are entitled to be advised by 
counsel. Do any of you desire to be advised by counsel during 
the testimony today?
    All the witnesses indicate no.
    In that case, if you'd all please rise, raise your right 
hand, I'll swear you in.
    [Witnesses sworn.]
    Mr. Murphy. Thank you. All the witnesses indicated that 
they do.
    So you are now under oath and subject to the penalties set 
forth in Title 18, Section 1001 of the United States Code.
    You may now each give a 5-minute summary of your written 
statement. We'll start with you, Senator Gorton. Welcome here. 
You are recognized for 5 minutes.

   STATEMENTS OF HON. SLADE GORTON, FORMER U.S. SENATOR FROM 
WASHINGTON STATE, COMMISSION MEMBER, COMMISSION ON THE THEFT OF 
   AMERICAN INTELLECTUAL PROPERTY; LARRY M. WORTZEL, PH.D., 
    COMMISSIONER, U.S.- CHINA ECONOMIC AND SECURITY REVIEW 
    COMMISSION; JAMES A. LEWIS, DIRECTOR AND SENIOR FELLOW, 
TECHNOLOGY AND PUBLIC POLICY PROGRAM, CENTER FOR STRATEGIC AND 
   INTERNATIONAL STUDIES; AND SUSAN OFFUTT, CHIEF ECONOMIST, 
 APPLIED RESEARCH AND METHODS, GOVERNMENT ACCOUNTABILITY OFFICE

                 STATEMENT OF HON. SLADE GORTON

    Mr. Gorton. Mr. Chairman, Madam----
    Mr. Murphy. Pull it close to you. These microphones in the 
House are not as good as Senate ones.
    Mr. Gorton [continuing]. Representative of the city in 
which I grew up, I thank you for your greetings. I was a member 
of the Intellectual Property Theft Commission, headed by former 
Governor Jon Huntsman and former Admiral Dennis--Dennis Blair, 
President Obama's first Director of National Intelligence. It 
had three goals. The first was to chart the dimensions of the 
intellectual property theft and their impact on the United 
States.
    Second, to separate the rather large part of that that 
comes from the People's Republic of China. And, third, to make 
recommendations to the administration and to the Congress about 
what--what to do about it. Two of you have already pointed out 
that we found a minimum of $300 million a year of losses to the 
American economy through intellectual property theft, 
representing a couple of million jobs. Just imagine what that 
would do for us all by itself, without any of the debates which 
have rocked--rocked this Congress.
    I would say at the beginning that it isn't just cyber 
enterprise, cyber theft. Cyber theft is a major part of 
stealing trade secrets, but there's also a violation of 
copyright and trademark protections and patent infringement. 
For example, one software developer in the United States 
reported to us that a few years ago, it sold one software 
program in China for approximately $100. A year later, when 
there was an automatic update available, it had 30 million 
calls from China. 30 million to 1. That wasn't cyber 
enterprise, that was just reverse engineering a piece of 
software.
    Now, China accounts for 50 to 80 percent of this 
intellectual property loss. Much of which, maybe even most of 
which is from private sector Chinese firms. But they are able 
to do that because the sanctions in China for violations, even 
when they are caught, are extremely small and rarely enforced.
    Now, what that leads me to say is that while we--that every 
one of the recommendations that we have made in this commission 
report will help, they are primarily defensive in nature. And 
it is clear that we need better defensive measures to deal with 
cyber theft and other forms of intellectual property theft. But 
I am convinced that that will never solve the problem on its 
own. What we need to do is to come up with policy responses 
that create interest groups in China and in the other violators 
that value intellectual property protection. When there is a 
major interest group in China that says this is hurting us 
rather than helping us, we will have begun to solve the 
problem. That's a very difficult challenge. A few of the 
recommendations we make would make steps, appropriate steps in 
that direction and we recommend them to you. But think from the 
very beginning, how do we create an interest group that is on 
our side in the countries that are engaged in this kind of 
theft.
    Our recommendations, including targeting for financial 
factions, quick response measures for seizing intellectual 
property-infringing goods at the border when they arrive, and 
increasing support for the FBI, among others. Finally,I would 
say that at the very end, in the last 2 pages of our report, we 
list three other methods of dealing with this matter that 
aren't our formal recommendations. They are all relatively 
nuclear in nature. But we commend them to your very, very 
careful study, each--because each of those carries with it the 
ability to create that internal group in China itself that will 
be on--will be on our side.
    And with that, I'm at your disposal. The National Bureau of 
Asian Research, which conducted this, is at your disposal. We 
want to help you as much as we possibly can. We are convinced 
that this is not a partisan issue by any stretch of the 
imagination. And that this committee should be able to come up 
with unanimous responses that will be of real impact.
    Mr. Murphy. Thank you, Senator.
    [The prepared statement of Mr. Gorton follows:]


    [GRAPHIC] [TIFF OMITTED] 86391.001
    
    [GRAPHIC] [TIFF OMITTED] 86391.002
    
    [GRAPHIC] [TIFF OMITTED] 86391.003
    
    Mr. Murphy. Dr. Wortzel, you are recognized for 5 minutes. 
Please bring the microphone real close to your mouth so we can 
hear. Thank you.


                 STATEMENT OF LARRY M. WORTZEL

    Mr. Wortzel. Chairman Murphy, Ranking Member Schakowsky, 
members of the subcommittee. I'll discuss the role of China's 
government, its military and intelligence services, and its 
industries and cyber espionage and the theft of U.S. 
intellectual property. My testimony presents some of the U.S.-
China Economic and Security Review Commission's findings on 
China's cyber espionage efforts, but the views I present today 
are my own. In 2005, Time Magazine documented the penetration 
of Department of Energy facilities by China in the Titan Rain 
intrusion set. So this cyber espionage has been going on for 
quite some time. China's using its advanced cyber capabilities 
to conduct large-scale cyber espionage, and has, to date, 
compromised a range of U.S. networks, including those of the 
Department of Defense--Departments of Defense, State, Commerce, 
and Energy, defense contractors, and private enterprises.
    China's cyber espionage against the U.S. Government and our 
defense industrial base poses a major threat to U.S. military 
operations, the security of U.S. military personnel, our 
critical infrastructure, and U.S. industries. China uses these 
intrusions to fill gaps in its own research programs, to map 
future targets, to gather intelligence on U.S. Strategies and 
plans, to enable future military operations, to shorten 
research and development timelines for new technologies, and to 
identify vulnerabilities in U.S. systems.
    In my view, it's helpful when government and industry 
expose the intrusions and make the public aware of them. 
Businesses unfortunately are reluctant to do so. China's cyber 
espionage against U.S. commercial firms poses a significant 
threat to U.S. business interests and competitiveness.
    General Keith Alexander, Director of the National Security 
Agency, assessed that the value of these losses is about $338 
billion a year, although not all the losses are from China. 
That's the equivalent of the cost of 27 Gerald R. Ford class 
aircraft carriers. The Chinese government, military, and 
intelligence agencies support these activities by providing 
state-owned enterprises information extracted through cyber 
espionage to improve their competitiveness, cut R&D timetables, 
and reduces costs. The strong correlation between compromised 
U.S. companies and those industries designated by Beijing as 
strategic further indicate state sponsorship, direction, and 
execution of China's cyber espionage.
    Such governmental support for Chinese companies enables 
them to out-compete U.S. companies, which do not have the 
advantage of levering government intelligence data for 
commercial gain. It also undermines confidence in the 
reliability of U.S. brands. There's an urgent need for 
Washington to compel Beijing to change its approach to 
cyberspace and deter future Chinese cyber theft. My personal 
view is that the President already has an effective tool in the 
International Emergency Economic Power Enhancement Act. He 
could declare that this massive cyber theft of intellectual 
property represents an extraordinary threat to the national 
security, foreign policy, and economy of the United States.
    Under that declaration, the President, in consultation with 
Congress, may investigate, regulate, and freeze transactions 
and access as well as block imports and exports in order to 
address the threat of cyber theft and espionage. The authority 
has traditionally been used to combat terrorist organizations 
and weapons proliferation, but there's no statutory prohibition 
or limitation that prevents the President from applying it to 
cyber espionage issues. If some version of Senate Bill 884 
becomes law, it should be expanded to direct the State 
Department to work with and encourage allied countries to 
develop similar laws. I want to thank you for the opportunity 
to appear today, and I'm happy to respond to any questions you 
may have.
    Mr. Murphy. Thank the gentleman.
    [The prepared statement of Mr. Wortzel follows:]
    [GRAPHIC] [TIFF OMITTED] 86391.004
    
    [GRAPHIC] [TIFF OMITTED] 86391.005
    
    [GRAPHIC] [TIFF OMITTED] 86391.006
    
    [GRAPHIC] [TIFF OMITTED] 86391.007
    
    [GRAPHIC] [TIFF OMITTED] 86391.008
    
    [GRAPHIC] [TIFF OMITTED] 86391.009
    
    [GRAPHIC] [TIFF OMITTED] 86391.010
    
    [GRAPHIC] [TIFF OMITTED] 86391.011
    
    [GRAPHIC] [TIFF OMITTED] 86391.012
    
    [GRAPHIC] [TIFF OMITTED] 86391.013
    
    [GRAPHIC] [TIFF OMITTED] 86391.014
    
    [GRAPHIC] [TIFF OMITTED] 86391.015
    
    [GRAPHIC] [TIFF OMITTED] 86391.016
    
    [GRAPHIC] [TIFF OMITTED] 86391.017
    
    [GRAPHIC] [TIFF OMITTED] 86391.018
    
    [GRAPHIC] [TIFF OMITTED] 86391.019
    
    Mr. Murphy. Mr. Lewis, you are recognized for 5 minutes.


                  STATEMENT OF JAMES A. LEWIS

    Mr. Lewis. Thank you, chairman. And thank you for the 
committee's opportunity to testify. I feel right at home, since 
I was born in Pittsburgh and lived in Evanston. So it's good to 
be back.
    I should note that one of the things I do is lead track 2 
discussions with government agencies in China. We've had eight 
meetings that have included the PLA, the Ministry of State 
Security, and others. Some of my testimony is based on this 
not-public information. I'm going to discuss three issues: Why 
China steals intellectual property, what the effects of this 
are in the U.S. and China, and steps we can take to remedy the 
problem.
    Cyber espionage is so pervasive that it challenges 
Beijing's ability to control it. Every Fortune 500 company in 
the U.S. has been a target of Chinese hackers, in part because 
American defenses are so feeble. Right? China has four motives 
for cyber espionage: First, they have an overwhelming desire to 
catch up and perhaps surpass the West. Second, they believe 
that rapid economic growth is crucial for the party to maintain 
its control. Third, they have no tradition of protecting 
intellectual property. And, finally, some Chinese leaders fear 
that their society has lost the ability to innovate and the 
only way to compensate is to steal technology. China supports 
its strategic industries and state-owned enterprises through 
cyber espionage. For example, China's economic plans made clean 
energy technology a priority, and the next thing that happened 
was the clean energy companies in the U.S. and Germany became 
targets.
    China's economic espionage activities against the U.S. are 
greater than the economic espionage activities of all other 
countries combined. The effects, however, are not clear-cut 
benefits for China. China often lacks the know-how and 
marketing skills to turn stolen technology into competing 
products. A dollar stolen does not mean a dollar gained for 
China. This is not true for confidential business information, 
which a director of an allied intelligence service once 
described as normal business practice in China. So if you're 
going to negotiate, if you're going for business, they will 
steal your playbook; they will know your bottom line. This is 
immense, immediate advantage. But cyber espionage also hurts 
China. One of their goals is to become an innovative economy. 
And they are unable to do this while they are dependent on 
espionage. They also create immense hostility and suspicion in 
their relations with many countries. The U.S. is not the only 
victim.
    Espionage is a routine practice among great powers. And no 
one can object to espionage for military and political 
purposes. What is unacceptable is espionage for purely 
commercial purposes. Frustration with the lack of progress in 
discussions with China have led to suggestions for sanctions or 
retaliation. These are not in our interest. We don't want to 
start a war with China, nor do we want to crash the Chinese 
economy. Hacking back has little real effect and runs contrary 
to U.S. law and international commitments.
    Instead, we need a strategy with four elements. Sustained 
high-level attention. This is going to take years. This is not 
something we're going to fix in a couple of months. We need to 
create public disincentives for the Chinese hacking, using 
Treasury, visa laws, and perhaps FBI activities, Department of 
Justice activities. We need closer coordination with our 
allies, most of whom are not on the same page as us in this 
matter. And, finally, we need improved cyber defenses to make 
our companies stronger.
    Last month, a U.N. Group that included the U.S. and China 
said that international law and the principles of state 
responsibility apply to cyberspace. This agreement provides a 
foundation for rules on hacking. The best strategy, the one 
that has the best chance of success, is to create with our 
allies global standards for responsible behavior and then press 
China to observe them. To use a favorite Chinese expression, we 
want a win-win outcome rather than a zero-sum gain where only 
one side can win.
    Cyber espionage lies at the heart--the heart of the larger 
issue of China's integration into the international system, and 
at the heart of the efforts of the Chinese to modernize their 
economy. This is a problem that has become one of the leading 
issues in international relations. China's economic growth has 
been of immense benefit to the world. But what was tolerable 
when China was an emerging economy is no longer tolerable when 
it is the world's second largest economy. I think we are on the 
path to resolving this issue, but it is a path that will take 
many years to complete. And I thank the committee for its 
attention to this issue. I look forward to your questions.
    Mr. Murphy. Thank you, Mr. Lewis.
    [The prepared statement of Mr. Lewis follows:]
    [GRAPHIC] [TIFF OMITTED] 86391.020
    
    [GRAPHIC] [TIFF OMITTED] 86391.021
    
    [GRAPHIC] [TIFF OMITTED] 86391.022
    
    [GRAPHIC] [TIFF OMITTED] 86391.023
    
    [GRAPHIC] [TIFF OMITTED] 86391.024
    
    [GRAPHIC] [TIFF OMITTED] 86391.025
    
    [GRAPHIC] [TIFF OMITTED] 86391.026
    
    [GRAPHIC] [TIFF OMITTED] 86391.027
    
    [GRAPHIC] [TIFF OMITTED] 86391.028
    
    Mr. Murphy. And now Ms. Offutt. Am I pronouncing that 
correctly? Thank you. You're recognized for 5 minutes.


                   STATEMENT OF SUSAN OFFUTT

    Ms. Offutt. Thank you. Mr. Chairman, Ranking Member 
Schakowsky, members of the subcommittee, thank you for the 
opportunity to share our observations on the economic effects 
of intellectual property theft and efforts to quantify the 
impact of counterfeiting and piracy on the U.S. economy. 
Intellectual property plays a significant role in the U.S. 
economy, and the U.S. Is an acknowledged leader in its 
creation. Intellectual property is any innovation, commercial 
or artistic, or any unique name, symbol, logo, or design used 
commercially. Cyberspace, where much business activity and the 
development of new activities often take place, amplifies 
potential threats by making it possible for malicious actors to 
quickly steal and transfer massive quantities of data, 
including intellectual property, while remaining anonymous and 
difficult to detect. According to the FBI, intellectual 
property theft is a growing threat, which is heightened by the 
rise of the use of digital technologies. Digital products can 
be reproduced at very low costs, and have the potential for 
immediate delivery through the Internet across virtually 
unlimited geographic markets. Cyber attacks are one way that 
threat actors, whether they are nations, companies, or 
criminals, can target intellectual property and other sensitive 
information of Federal agencies and American businesses. While 
we have not conducted an assessment of the economic impact of 
cyber espionage, our work examining efforts to quantify the 
economic impact of counterfeited and pirated goods on the U.S. 
economy can provide insights on estimating economic losses.
    Specifically, my testimony today addresses two topics: 
First, the economic significance of intellectual property 
protection and theft on the U.S. economy, and insights from 
efforts to quantify the economic impacts of counterfeiting and 
piracy on the U.S. economy. My remarks are based on two 
products that GAO issued over the past 3 years, a 2010 report 
on intellectual property, and 2012 testimony on cyber threats 
and economic espionage.
    As reported in 2010, intellectual property is an important 
component of the U.S. economy. The U.S. economy and 
intellectual-property-related industries contribute a 
significant percentage to U.S. Gross domestic product. IP-
related industries also pay higher wages than other industries 
and contribute to a higher standard of living in the United 
States.
    Ensuring the protection of intellectual property rights 
encourages the introduction of innovative products and creative 
works to the public. According to the experts we interviewed 
and the literature we reviewed, counterfeiting and piracy have 
produced a wide range of effects on consumers, industry, 
government, and the aggregate national economy. For example, 
the U.S. economy may grow more slowly because of reduced 
innovation and loss of trade revenue. To the extent that 
counterfeiting and piracy reduce investments in research and 
development, companies may higher fewer workers and may 
contribute less to U.S. economic growth overall.
    Furthermore, as we reported in 2012, private sector 
organizations have experienced data loss or theft, economic 
loss, computer intrusions, and privacy breaches. For example, 
in 2011, the media reported that computer hackers had broken 
into and stolen proprietary information worth millions of 
dollars from the networks of six U.S. And European energy 
companies.
    Generally, as we reported in 2010, the illicit nature of 
counterfeiting and piracy makes estimating the economic impact 
of intellectual property infringement extremely difficult. 
Nonetheless, research in specific industries suggests the 
problem is sizable, which is a particular concern, as many U.S. 
industries are leaders in the creation of IP. Because of 
difficulty in estimating the economic impacts of these 
infringements, assumptions must be used to offset the lack of 
data. Efforts to estimate losses involve assumptions, such as 
the rate at which consumers would substitute counterfeit for 
legitimate goods, and these assumptions can have enormous 
impacts on the resulting estimates. Because of the significant 
differences in types of counterfeit and pirated goods and 
industries involved, no single method can be used to develop 
estimates. Each method has limitations. And most experts 
observe that it is difficult, if not impossible, to quantify 
the economy-wide impacts. Mr. Chairman, Ranking Member 
Schakowsky, other members of the committee, this is the end of 
my statement. I'd be happy to answer questions.
    Mr. Murphy. Thank you. I appreciate that.
    [The prepared statement of Ms. Offutt follows:]
    [GRAPHIC] [TIFF OMITTED] 86391.029
    
    [GRAPHIC] [TIFF OMITTED] 86391.030
    
    [GRAPHIC] [TIFF OMITTED] 86391.031
    
    [GRAPHIC] [TIFF OMITTED] 86391.032
    
    [GRAPHIC] [TIFF OMITTED] 86391.033
    
    [GRAPHIC] [TIFF OMITTED] 86391.034
    
    [GRAPHIC] [TIFF OMITTED] 86391.035
    
    [GRAPHIC] [TIFF OMITTED] 86391.036
    
    [GRAPHIC] [TIFF OMITTED] 86391.037
    
    [GRAPHIC] [TIFF OMITTED] 86391.038
    
    [GRAPHIC] [TIFF OMITTED] 86391.039
    
    [GRAPHIC] [TIFF OMITTED] 86391.040
    
    [GRAPHIC] [TIFF OMITTED] 86391.041
    
    [GRAPHIC] [TIFF OMITTED] 86391.042
    
    Mr. Murphy. Let me start off by asking Mr. Lewis, if a U.S. 
company were to do these things to another U.S. company, hack 
into their computers, replicate projects, steal blueprints, et 
cetera, and basically make the same product, whatever it is, 
what kind of penalties would that U.S. company incur when they 
were caught, prosecuted?
    Mr. Lewis. There are several sets of penalties. The first 
is, of course, it could be liable to a lawsuit. We see lawsuits 
over IP violations frequently. Right? And if it can be proven 
in court, the damages can be substantial. Second, in some 
cases, the Economic Espionage Act can be applied to any 
company, U.S. or foreign, if they engage in this kind of 
activity. Third, there are computer security laws that if 
hacking occurs the company would be liable for that if it can 
be proven. One of the differences between the U.S. and 
countries like China and Russia is we have laws and we enforce 
them. They either don't have laws and they certainly don't 
enforce them. So in the U.S., you don't see as much of this if 
anything comparable at all.
    Mr. Gorton. In other words, there are both criminal and 
civil penalties available in the United States.
    Mr. Murphy. But not ones that we can impose upon foreign 
nations when they do the same thing.
    Let me follow up. Senator Gorton, and all of you, estimates 
show that the IP assets alone represent 75 to 80 percent of the 
S&P 500 market value, and the U.S. IP worth is at least $5 
trillion, and licensing revenues for IP is estimated as 150 
billion annually. So if cyber espionage is the biggest cyber 
threat America faces today, what really is at stake if we fail 
to act on it?
    Mr. Gorton. I'm sorry. I missed the last part.
    Mr. Murphy. So if cyber espionage is the biggest cyber 
threat America faces today, what really is at stake if we fail 
to act on it?
    Mr. Gorton. What's at stake is, first, others have 
testified to this, when it relates the our national defense, 
our very national security is at stake. When it can be measured 
by dollars, because that deals with civil, it is the $300 
billion-plus losses that we found. And I must say, when we 
began this work, we found ourselves really sailing on uncharted 
seas. We didn't have a whole lot of earlier commissions that 
had worked on this. And our research was, to a certain extent, 
original.
    Some people in the private sector didn't want to cooperate 
with us and were afraid of what would happen to them, sanctions 
that would be taken against them by China and the like. So I 
think that $300 billion-plus is a conservative estimate. The 2 
million job loss comes from other sources. But between those 
two figures, that's what it's costing us.
    Mr. Murphy. And Dr. Wortzel, on that issue, too, and let me 
address this as well. What kind of protections are we missing 
here? And, of course, this also relates to the discussions 
taking place while Chinese delegation is in Washington today. 
But let's say, first of all, what kind of protections should we 
be dealing with in Congress? I know I read some things in your 
report. What would you add to that?
    Mr. Wortzel. China's goal in the dialogues right now is to 
limit all access to the Internet for domestic security. So I 
think we can sort of leave them out of the equation. But I 
think the ability to link attribution and detection to criminal 
penalties, including arrest warrants, including limitations on 
travel, will really affect Chinese companies, Chinese leaders, 
and even individual actors. The Mandiant report identified, I 
think, four people by name showed who they are dating, showed 
what kind of car they drive. If that type of information was 
taken to a FISA court or some other court, an open court, and 
arrest warrants were issued, those people couldn't travel to 
the United States. And that would deter this.
    Mr. Murphy. Ms. Offutt, I have a question for you. So if 
you were advising the President and his staff this week as they 
are talking with the Chinese delegation in town what to push 
for, what would you say?
    Ms. Offutt. The work that GAO has done on intellectual 
property also involves the evaluation of cyber threats and 
measures that can be taken in order to combat them. This is not 
an area as chief economist that I'm competent to talk about at 
length. But we have made recommendations about the adoption of 
measures at the firm level, for example, that involve people, 
processes, and software measures that can be taken to defend 
against any intrusions.
    Mr. Murphy. Thank you. I see my time is up, so I now go Ms. 
Schakowsky for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman. I just wanted to 
respond to comments that you made that the White House or the 
administration didn't decline--that declined to have any 
witness. Apparently, they suggested other administration 
witnesses than those who were unable because of scheduling 
reasons to come. And I just wanted to make that point.
    Mr. Lewis, you wrote in your written testimony, ``we need 
to recognize that many companies have not paid serious 
attention to securing their networks. There is no obvious 
incentive for them to do so.''
    How could that be?
    Mr. Lewis. There's not a lot of work on this. And what we 
know is probably about 80 to 90 percent of the successful cyber 
attacks against U.S. Companies only involve the most basic 
techniques. I used to look for Chinese super cyber warriors. 
They don't need super cyber warriors, they need a guy in a tee 
shirt who is going to overcome the truly feeble defenses. And 
some of it is companies don't want to spend the money. Some of 
it is----
    Ms. Schakowsky. Aren't all the super cyber warriors just 
wearing tee shirts anyway?
    Mr. Lewis. We have pictures of some of them, which is aid 
in attribution issue. Sometimes companies spend money on the 
wrong stuff. And sometimes they don't want to know; it can 
affect their stock price, it may incur stockholder liability. 
So there's a whole set of incentives. It varies from sector to 
sector.
    The banks do a tremendous job. And it's interesting to note 
that despite the fact that the banks do a tremendous job, they 
were largely overcome by Iranian cyber attacks over the last 6 
months. Power companies, very uneven. There's three power 
companies in the Washington area. One does a great job, one 
does a terrible job. You know, it varies widely. We don't have 
a common standard. And there isn't a business model.
    Now, this is beginning to change as CEOs realize the risk. 
But we are very far behind when it comes to corporate 
protection.
    Ms. Schakowsky. Thank you. Dr. Wortzel, we--our government 
as a whole relies on--heavily on contractors. And that's 
especially true in the national security realm. Large projects 
rely on dozens of private sector contractors, layer upon layer 
of subcontractors, technology supply chains for military 
hardware are enormous. So how do we address the unique cyber 
security risks posed by long contracting and supply chains?
    Mr. Wortzel. Well, I think our supply chain has really big 
vulnerabilities. And the Commission has tried to look into this 
on major systems like the Osprey, the F-22, and a class of 
destroyers. And the Department of Defense could not go beyond 
the second tier in the supply chain. They don't know where this 
stuff is sourced from. So that's a huge problem.
    The companies, in my opinion, that are in the defense 
industrial security program are getting good support from the 
Defense Security Service. They get regular visits. They get 
support from the Defense Security Service and the FBI on their 
cyber protections and their defenses. And it's not a perfect 
program, obviously, or we wouldn't have lost all that F-35 
data. I think it's gotten a lot better. I think the FBI and the 
Department of Defense are--and the National Security Agency are 
doing a better job on intrusion monitoring for clear defense 
contractors.
    Ms. Schakowsky. Let me ask you about the pipeline sector 
which has been considered vulnerable to cyber attacks. And 
anyone can answer that. Dr. Wortzel or Dr. Lewis.
    Mr. Wortzel. Well, our critical infrastructure, pipelines, 
are targeted by the Chinese military in case of a conflict. And 
those are private companies, run by private companies for the 
most part. And there simply is no legislation that would 
require those companies to maintain a set standard of security. 
And I think that's a huge vulnerability that has to be 
addressed.
    Mr. Lewis. You want to think about two sets of actors. The 
Chinese and the Russians have done their recognizance; they 
could launch attacks if we got in a war with them. But they're 
grown-up great powers. They are not going to just start a war 
for fun. On critical infrastructure, the greatest risk comes 
from Iran. Iran has significantly increased its capabilities, 
and they also are doing recognizance and targeting critical 
infrastructure, including pipelines. And so the Iranian 
Revolutionary Guard worries me more in this aspect than the 
PLA.
    Ms. Schakowsky. Thank you. I yield back.
    Mr. Murphy. Thank you. Now recognize the vice chair of the 
full committee, Ms. Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you all. And your testimony is 
absolutely fascinating. And I appreciate your time being here. 
I've got a couple of questions. Hope I can get through all of 
them.
    Senator Gorton, I want to start with you. I appreciate so 
much what you said about having a major interest group in China 
that wants to join us in these efforts for IP protection and 
fighting the theft. I think that indigenous industry that feels 
as if they are worth being protected would be important. I 
appreciate that you have brought forward some recommendations. 
And I want to know if you think there is anything that ought to 
be the first--the first salvo, if you will. What would be the 
very first step? Because we're in the tank on this. They've got 
a head start. This has become, as I said in my opening remarks, 
their economic development plan to reverse engineer and distill 
this IP theft. And we've got to put a stop to that. So item 
number 1, if you were to prioritize these recommendations, what 
should be first out of the gate for us?
    Mr. Gorton. Thank you very much for that question. I was 
trying figure out how to answer it before you asked it. I think 
from the point of view of this committee, what might be the 
easiest and most appropriate first step would be to put one 
person, one office in charge. Our recommendation is that that 
be the Secretary of Commerce. That everything related to cyber 
security other than defense go through the Secretary of 
Commerce. That's where you'll begin to get control of those 
$300 billion and those 2 million jobs.
    Even the response that you've received here today is there 
are all kinds of people in the administration, who is going to 
come and speak for them? There isn't one focal point. But if 
you make that focal point to the Secretary of Commerce, who 
does respond to you, I think it would be a major step forward.
    Mrs. Blackburn. And I would imagine that you would 
recommend having that one person but with appropriate 
Congressional oversight and appropriate sunsets and all of 
that.
    Mr. Gorton. Absolutely. And you are that oversight.
    Ms. Blackburn. I appreciate that affirmation. So I thank 
you for that.
    Mr. Wortzel, did you see The Washington Post this morning? 
The cover story, ``Regimes Web Tools Made in the USA''?
    Mr. Wortzel. I did not.
    Ms. Blackburn. I would just commend it to each of you to 
review. You're generous to give us your time this morning.
    But let me ask you this, come to you with this question, 
since you're doing so much work in that U.S.-China 
relationship. And the problem there is significant. And we know 
that it bleeds over into Russia and then as you mentioned some 
of the other countries that are even less friendly to us.
    So China has significant restrictions on the Internet and 
on Internet usage by the citizens and the population there. So 
if we were to establish rules of the road, if you will, for how 
we were going to respect the transfer of property, et cetera, 
over the Internet, how are we going to do this so that--with a 
country where our understanding of freedoms and our 
understanding of usage are so inherently and basically 
different.
    Mr. Wortzel. I don't think you can. My experience with 
China is they will steal and reverse engineer anything they can 
get their hands on. And I've been dealing with them full-time 
since about 1970. In the middle of their industries and 
delivering defense products to them. I think you really have to 
understand that the goal, and Jim outlined it nicely, the goal 
of Chinese Communist Party is to grow the economy, stay in 
power, and advance itself technologically. And most of the 
industries are state-owned or municipally-owned and directed by 
the government and aided by the intelligence services.
    Mrs. Blackburn. Mr. Lewis, do you want to add anything to 
that?
    Mr. Lewis. Sure. I'm a little more positive. And I don't 
have Larry's long experience; I've only been negotiating with 
the Chinese since 1992. And we began negotiating with them on 
the issue of proliferation. And the Chinese used to be among 
the major proliferators in the world. And you can put together 
a package of measures that include sanctions, support from 
allies, direct negotiations with them. That can get them to 
change their behavior. So I'm confident that we can, if we keep 
a sustained effort in place, get them to act differently. And 
in part, it's because they know they're caught. They want to be 
a dynamic modern economy. You can't do that when you're 
dependent on stealing technology. They have a big 
contradiction. And we can sort of help them make the right 
decision.
    Mrs. Blackburn. My time has expired. I have other 
questions, but I will submit those for the record.
    Mr. Murphy. I thank the gentlelady. I now recognize Dr. 
Burgess for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. And, yes, it is 
fascinating topic. I do have a number of questions, and I will 
have to submit, obviously, some of those for the record to be 
answered in writing.
    But Dr. Wortzel and Mr. Lewis, when you heard my comments 
at the opening--yes, we're all concerned about sovereign spying 
and cyber security from a sovereign standpoint. Big businesses 
are concerned. Coca-Cola is smart not to put their formula on a 
network; that way, it's not available for theft. But what about 
the legions of small businesses out there? You had heard my 
comments in my opening statement. I'm concerned about the 
protection that they have or that they don't have from a 
liability perspective. So I guess, Mr. Lewis, my first question 
is to you. What--what can the small businesses do to improve 
their ability to prevent, identify, and mitigate the 
consequences of a successful compromise?
    Mr. Lewis. This is a major problem, because the small 
businesses are very often the most creative and the most 
innovative, and so we have to find ways to protect them. 
There's a couple of approaches that might be successful. NIST, 
as I think some of you said, is developing a cybersecurity 
framework. They are not allowed to use the word ``standard,'' 
so they said framework, but if the framework comes out in a 
good place, it will lay out measures that any company can take 
to make their defenses better. We know how to do cybersecurity. 
We just don't have anybody really pushing that measure, and you 
can tell companies what to do. Hopefully NIST will do that.
    The second one, and this relates to something that----
    Mr. Burgess. Let me stop you there and just ask you a 
question. Maybe you can tell companies what to do, so you are 
referring to Congress could legislate or mandate an activity 
that a company would have to do?
    Mr. Lewis. Let me give you an example which is, the people 
who are actually in the lead on this, in part because they 
enjoy so much attention from China, might be the Australians. 
So the Australian Department of Justice Attorney General, came 
up with a set of 35 strategies developed by their signals 
intelligence agency, and said, if you put these strategies in 
place, we will see a significant reduction in successful 
attacks. The Australians told me it was 85 percent reduction, 
and I said I don't believe it. So they let me go and talk to 
some of the ministries that tried it. They told me 85 is wrong; 
it is actually higher. That is now mandatory for government 
agencies in Australia. You can do this if you are a company. It 
is pretty basic stuff.
    Mr. Burgess. Now, are you at liberty to share that 
information with the committee so you could make that----
    Mr. Lewis. Oh, sure. I will definitely pass that along.
    Mr. Burgess. Thank you.
    Mr. Lewis. The second one, and this relates to I think 
something Larry said, is you can make the ISPs do a better job 
of protecting their customers. And they might want to do that 
for business reasons. Some of them already do, like AT&T or 
Verizon. But the ISP will see all of the traffic coming into 
the little company. They can take action before it reaches its 
target. So there's two things you could do that would make the 
world a better place.
    Mr. Burgess. And again, my comments during the opening 
statement, I'm concerned particularly for the small physician's 
office, the dentist's office, where there may be significant 
personal data put on a network as required now for electronic 
billing, and electronic prescribing that is now required of 
those offices. And yet, we provide no liability protection if 
one of those offices is hit with an attack.
    It hasn't been a big story yet, but it is going to happen. 
We all know that it is going to happen. We had a dentist in 
Plano, Texas not too far away from the district that I 
represent, who lost a significant amount of personal data to 
some type of criminal attack in the cyberspace. I think we all 
know not to open the email from the Nigerian king who died and 
left you money in his will. But a lot of these attacks are 
sophisticated. Yes, it is small-potato stuff, but it's a lot of 
our businesses that can be affected.
    Dr. Wortzel, do you have some thoughts about that?
    Mr. Wortzel. Mr. Burgess, I live in the first district of 
Virginia, Williamsburg, Mr. Whitman's district. Today in my 
district, the FBI is running a big seminar for all businesses 
and interested people on exactly this question. So the 
government is doing some things. I have to say that one of the 
positive areas of our dealings with China, is in bilateral 
cooperation on credit card and bank crime. So when it comes to 
the type of theft you are talking about, I think that between 
the Department of Treasury, and the FBI's legal attaches, you 
would see some progress.
    Mr. Burgess. Can I just ask you a question on that? Because 
that----
    Mr. Wortzel. Pardon me?
    Mr. Burgess. Can I ask you a question on that, because that 
does come up with some of our community banks. And they are 
sort of like the end user. They are the target organ, but 
really, it is the larger bank that deals with the offshore 
transaction that likely should have caught that activity, but 
it is always the smaller community bank that is then punished 
for having lost those funds for their--for their customer. So 
is there a way to actually involve the larger offshore banks 
that are doing these offshore transactions?
    Mr. Wortzel. I'm afraid, I do not know the answer to that.
    Mr. Burgess. OK. If you can look into that and get back 
with us with some more information because that comes up all 
the time.
    Mr. Wortzel. I will do that. And I think the final thing I 
would say is, some of the equipment and programs that would 
protect small business are pretty expensive, $50,000 for a 
special monitoring router. But a group of businesses in an area 
could get together, share the cost of something like that, and 
mitigate these concerns.
    Mr. Burgess. Yes, if the Federal Trade Commission will let 
them. Thank you very much, Mr. Chairman.
    Mr. Murphy. The gentleman's time is expired. I now 
recognize the gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. China plays a key role 
in cyber attacks against the United States. Of course, we have 
heard it recently because of some of our citizens going to 
China. Credible reports have noted that China has a government-
sponsored strategy to steal American intellectual property in 
order to gain strategic advantage, and that Chinese military 
has been actively trying to steal military technology.
    Dr. Wortzel, can you explain why China is, far and away, 
the number one perpetrator of these attacks and what is the 
history here and how long has this been going on?
    Mr. Wortzel. Well, the first really open documentation of 
it, Mr. Green, was the report, three series of reports by TIME 
Magazine, the Titan Rain penetrations. Now, the poor guy that 
went to the government and said this is going on, and 
pinpointed it to China, got frustrated because there wasn't a 
government response. He leaked it to TIME Magazine, he lost his 
security clearance and his job. So the government has got to 
acknowledge that this is happening.
    Mr. Green. Yes.
    Mr. Wortzel. And it really owes it to the citizens to do 
this. But I think it is important to understand that the third 
department, the signals intelligence department of the People's 
Liberation Army and the fourth department, the electronic 
warfare and electronic countermeasures department work 
together. The third department alone has 12 operational bureaus 
looking at strategic cyber, and signals, three research 
institutes, four operational center, and 16 brigades with 
operational forces. And that about half that number that--are 
the people that do the door kicking and penetrate in the fourth 
department. That leaves out the Ministry of State Security. 
That leaves out 54 state-controlled science and technology 
parks, each of which are given specific strategic goals by the 
Chinese government, and Chinese Communist Party to develop 
different technologies. So we just face a huge threat. And 
that's why I'm a little more pessimistic than Jim in solving 
it.
    Mr. Green. Mr. Lewis, do you have anything to add to that?
    Mr. Lewis. The Chinese economic espionage began in the late 
1970s with opening to the west. It has been part of their 
economic planning since then. What happened at the end of the 
1990s, was that the Chinese discovered the Internet, discovered 
it is a lot easier to hack than to cart off a whole machine 
tool or something. And so this has been going on for over 30 
years. It is a normal policy for them. I'm a little more 
optimistic though. You can get them to change if you put the 
right set of pressure and pressure points on them.
    Mr. Wortzel. I will give you two examples, if I may. I 
delivered as the Assistant Army Attache, a U.S. Army artillery-
locating radar to the Chinese military. And I noticed that I 
began to get orders, or requests for resupply of certain parts. 
And the radars were supposed to be down on the Vietnam border. 
So I went to the Thai Army, the U.S. attache in Thailand and 
said, hey, are these parts failing in your equipment, same 
rough environmental problem? And they had a zero failure rate. 
So within 4 months, they had reverse engineered these radars, 
and what they couldn't build, they kept saying they had part 
failures so they would get parts and try and reverse engineer 
those.
    Another time after the Tiananmen massacre in '89, another 
attache and I were out in Shandong Province and we had a down 
day, and we asked to visit a PLA, People's Liberation Army 
radio factory. And sure, they said come in. Things were still 
in pretty good shape between the U.S. military and the Chinese, 
and they showed us their research and development shop for new 
radios and cell phones. And they were literally disassembling 
and copying Nokia cell phones, and Japanese radios. So it is a 
long tradition there. It goes back to 1858 and the self-
strengthening movement when they went out, bought and copied 
the best weapons and naval propulsion systems in the world. Of 
course, they got beaten by the Japanese in 1895, and that put 
an end to that.
    Mr. Green. Well, the Chinese government officially denies 
they conduct cyber espionage, and what evidence is there that 
the country is behind many of these attacks outside of your 
vigil there at the PLA?
    Mr. Wortzel. Well, I think the Mandiant Report did an 
excellent job. I think that the director of the National 
Security Agency, and the National Counterintelligence Executive 
have provided a great deal of evidence on attribution, as has 
the FBI.
    Mr. Lewis. There is a classified report put out by the 
Director of National Intelligence that probably has not been 
made available to the committee. You might want to ask for it.
    Mr. Green. OK.
    Mr. Lewis. I will give you an example from these talks we 
had with the Chinese. We spend an entire day talking about 
economic espionage. And at the end of it--including the 
Economic Espionage Act. At the end of it, a PLA senior colonel 
said to us, look, in the U.S. military espionage is heroic and 
economic espionage is a crime, but in China, the line is not so 
clear. So one of the things we can do is make the line a little 
clearer to them.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Murphy. The gentleman yields back. The chair will now 
recognize Mr. Johnson from Ohio for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and I appreciate so 
much the opportunity to hear from the panel today. I spent 
nearly 30 years in information technology in the Air Force and 
in the private sector before coming to Congress. And I know 
that this is a tremendously complex and concerning issue 
because computing technology, at its very base, is not that 
complicated. It's ones and zeros. And for malicious nations 
like China and others who understand how to manipulate ones and 
zeros, this is not going to be an issue that we can solve today 
and then put it on the shelf and come back and look at it 5 
years from now, and upgrade it and that kind of thing. This is 
going to be a daily, daily obligation to protect not only our 
national security, but our industries, and our businesses 
across the country.
    So I'd like to ask just a--just a few questions. Dr. Lewis, 
in your testimony, you stated that it would be easier for China 
to give up commercial espionage if the cost of penetrating 
business networks is increased and the return from those 
penetrations are minimized. How, given the ease with which this 
can be done by computer practitioners, how can we increase the 
cost to China that will dissuade them?
    Mr. Lewis. We can make it a little harder for them, and 
since you are familiar with the information technology, and 
probably all of you have done this with consumer goods, when 
you buy something, the user name is ``admin,'' and the password 
is ``password.'' And what we found repeatedly through research 
at both government agencies and corporations, is that people 
forget to change, right, so they leave the password as 
``password.'' And you know what, it doesn't take a mastermind 
to hack into a system if the password is ``password.'' There 
are other things you can do.
    You can restrict the number of people who have 
administrator privileges. If you look at Snowden for example, 
he had administrator privileges and that let him tromp all 
around the networks he was responsible for and collect 
information. You shouldn't let that happen. You can make 
passwords a little more complex. If passwords are your dog's 
name, or any of your first cars, or something like that, the 
people who do this for a living can usually guess that in under 
2 minutes. Right, it is not----
    Mr. Johnson. There are algorithms out there that will 
figure out passwords, so I'm not sure password security is 
going to solve the problems of a nation state like China.
    Mr. Lewis. And that's why we need to move away from 
passwords, and I hope that the NIST standards recognize that 
passwords failed more than a decade ago; we need to do 
something else. There are a number of small steps that can make 
it harder. Right now it is so easy to get into most networks 
that there is really little cost for the hacker. He doesn't 
have to put a lot of effort in.
    Mr. Johnson. Sure, Senator Gorton, I was positively 
intrigued by your comment that there needs to be one agency, or 
one person in charge. And I really believe that that has merit. 
I'm not sure who it should be. I haven't given that a whole lot 
of thought, but I certainly agree that there needs to be 
someone at the cabinet level that is responsible and 
accountable for overseeing this effort.
    Your report outlines a number of policy solutions that aim 
to address the loss of our intellectual property and 
technology. So kind of continuing along the lines of what you 
said earlier, is the government properly equipped to enforce 
the IP rights against foreign companies and countries, or are 
we too fractionalized to properly deal with the issue? And I 
submit, and you know, I admit full up, you know, even--even 
CEOs of companies today, their eyes glaze over when you start 
talking about information technology in its core application, 
because it's a complex environment.
    Do we have the right people? Do we have the right skill 
sets? Do we have the right focus to try and address this?
    Mr. Gorton. Well, we are decentralized, and I think it is 
very important that we--that we do create responsibility at, 
you know, at one place to the maximum possible extent. I would 
add to Mr. Lewis's,one of the recommendations we make, is to 
make it easier to seize goods that violate--that have 
violations of intellectual property when they arrive in the 
United States. A few years ago, we made it somewhat easier to 
go to court and to get seizures. It's nowhere near easy enough. 
And one of our principal recommendations is to allow on any 
kind of probable cause the temporary seizure of those goods 
when they arrive, and then get to court, and deal with it 
afterwards. So to a certain extent, it is a lack of 
decentralization. To a certain extent it does require tougher 
laws.
    Mr. Johnson. Yes. Well, my time is expired. I had much more 
I wanted to talk about, but maybe we will get to that another 
time. Thank you, Mr. Chairman, I yield back.
    Mr. Murphy. The gentleman yields back. The chair will now 
recognize Mr. Tonko from New York for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. Ms. Offutt, do you agree 
with the IP Commission's assessment of the value of the loss of 
intellectual property?
    Ms. Offutt. The work that we did suggests that an estimate 
like that, that's based on the application of a rule of thumb 
about the proportion of an industry's output that is vulnerable 
to or lost to intellectual property theft, is not reliable. 
There's certainly no way to look across all of the diverse 
sectors of the economy and suggest that the theft is 
characterized in any particular way that would be common to all 
of them.
    So the estimate that has gained currency, certainly in 
discussions, is, in our view, not credible. It's based on 
first, the notion that one-third of the economy's output comes 
from intellectual property-intensive industries. That means, 
essentially, companies that have a lot of patents, trademarks, 
copyrighting, that probably tells you what is at risk. But the 
application of the rule of thumb, which is 6 percent of that 
output being lost, we don't find any basis for believing that 
to be an accurate number.
    Mr. Tonko. Thank you, and while I understand the cost of IP 
theft is difficult to quantify, it has been suggested that the 
theft costs us over $300 billion annually in losses to the U.S. 
economy. I would like to try to further distinguish the types 
of IP theft. The Mandiant Report from February traced Chinese 
government support for cyberattacks. The Defense Department's 
2013 report to Congress on China explicitly mentions Russia's 
concerns about IP protection and how they will affect the types 
of advanced arms and technologies it is willing to transfer to 
China. So clearly, even Russia is concerned about Chinese 
state-sponsored IP theft. Can any of you as witnesses discuss 
the extent of state-sponsored IP theft?
    Mr. Lewis. In China, or globally?
    Mr. Tonko. Globally, or if you want to do both, that would 
be fine.
    Mr. Lewis. Both Russia and China have very tight control, 
very tight links to--between the government, and the hackers. I 
think that China is more decentralized, and one of the problems 
they will have in getting it under control is that, you know, 
regional PLA organizations, regional political organizations 
engage in independent action, right, not necessarily alerting 
Beijing to what they are doing. So it is a more decentralized 
system, and I think that the Chinese will have difficulty 
controlling it.
    In contrast, Russia is--appears to be very tightly 
centralized. All activities are controlled by the FSB. The 
Russians have a tremendous domestic surveillance capability, it 
is called SORM, SORM-2, in fact, that allows them to know what 
everyone is doing on the Internet. And so if you are a hacker 
and you are playing ball in Russia, you have to go along with 
what the FSB wants you to do.
    Mr. Tonko. Anyone else on that topic?
    Mr. Wortzel. Well, I think it's important to understand 
that in China, if they want to track down five religious people 
praying in a house church with unauthorized Bibles, they can do 
it. It's a pretty security-intrusive place. And if they wanted 
to track--if somebody gets on the Internet and is engaging in a 
form of political protest, they will get them and they will be 
in jail. So they can do what they want to do. They have that 
capacity. It's just that the state policy is, get this 
technology, so they don't bother with them.
    I would also like to suggest, if I may, that there are ways 
we can make things harder. I mean, you can--you can encode a 
digital signal in a file and attach that as you would a patent, 
copyright, or trademark, and a company that's developing a 
technology could do that, and then if you find that 
technology--if you find that code appearing elsewhere in 
China's, or Russia's control technologies, you could take legal 
action just as you would for a patent, copyright, or trademark. 
I am not quite sure that our intellectual property laws are up 
to that yet, but could you do that.
    Mr. Tonko. Just quickly when you look at the state-
supported effort for IP theft, and contrast that with 
individuals in criminal networks, what do you think the 
percentage breakdown would be if you had to guess at it?
    Mr. Lewis. In Russia, and China, I don't think there are 
any independent actors. I think that the degree of control that 
the government agencies exercise is--it is not like they are 
telling them this is what you have to do, but the criminals are 
appendages of the state, or they are tolerated by the state and 
in some cases they are directed by the state. So it is a 
different system over there, and I think that the degree of 
independent action is very, very limited.
    Mr. Gorton. In India you might find a good deal of 
independent action.
    Mr. Tonko. OK, thank you, Senator. With that I yield back, 
Mr. Chair.
    Mr. Murphy. The gentleman yield back. I will now recognize 
myself for 5 minutes of questions, and Senator Gorton, I would 
like to follow up on your idea of what would be best if you had 
one person who was responsible for overseeing all this. And I 
know that others have discussed that, and I would also like to 
ask you if you know that Victoria Espinel is the U.S. 
Intellectual Property Enforcement Coordinator approved by the 
U.S. Senate in 2009 in charge of the Obama administration's 
overall strategy for enforcement of intellectual property 
rights. Is that someone that you think would be helpful? She 
was invited and declined our invitation to attend today, but is 
that what you and Mr. Lewis, and others have in mind?
    Mr. Gorton. I would like to know what she would have said.
    Mr. Murphy. Same here. If I could ask you, Senator, as we 
look around the world and see what is going on, what we are 
having to combat here, do any other countries stand out as one 
that is perhaps doing it right, doing a significantly 
appropriate job on this?
    Mr. Gorton. I don't think so, but that wasn't something 
that was a central point of our investigation.
    Mr. Murphy. OK.
    Mr. Gorton. We were interested in what we did here. And Mr. 
Chairman, may I apologize? I didn't realize it would last so 
long. I have a noon date over on the Senate side that I'm going 
to have to leave now.
    Mr. Murphy. And we thank you for your time, and we 
certainly excuse you in light of that.
    Mr. Gorton. And I thank you. This is a vitally important 
mission on your part. And to take real action to protect our 
intellectual property will be a great service to the country.
    Mr. Murphy. And if anyone has any additional questions 
after your departure, we will see that they are submitted to 
you in writing. Thank you very much, Senator, for your time.
    All right, if I may ask you, Dr. Lewis. In your testimony, 
you said that it would be easier for China to give up 
commercial espionage as the cost of penetrating business 
networks is increased, and the returns from those penetrations 
are minimized. And I know we discussed that some, but would you 
give us some examples, or how you think we can increase the 
cost to China from commercial espionage?
    Mr. Lewis. Sure, and just to briefly respond to your 
question to Senator Gorton, the U.K., France, and Russia all 
have pretty effective programs in place. They are not 
watertight, but they are further along than we are. And some of 
it is different constitutional arrangements. The Australians 
have made some progress. If it's any consolation, people who 
are doing a worse job than us are the Chinese. They are in 
terrible shape when it comes to defense, and they remind me of 
that all the time. I think what we need to do, it is not enough 
of a consolation, but it is better than nothing, right? We need 
to find ways to get companies to harden their networks. And 
that involves identifying practices that would make the 
networks more difficult to penetrate and control. There are an 
identified set of practices. Hopefully NIST will encapsulate 
them. We need to think about better ways to share threat 
information. I know CISPA has attracted mixed review, the 
Cybersecurity Information Sharing Protection Act. We need some 
vehicle to let companies and government share information 
better on threats. That can be relatively effective.
    Finally, I'm a little surprised to hear commerce held up as 
the place you would want to coordinate. We do have a policy 
coordinator in the White House. She is doing a pretty good job. 
But the place where we have not done enough as a Nation is 
thinking about the role of the Department of Defense, and 
defending our network. And it is a bit of a sensitive topic at 
this time. You know, it's not the exact moment to come up and 
say we should give NSA a little more responsibility, but they 
do have capabilities that we are not taking full advantage of.
    Mr. Murphy. At this time, I will yield back and recognize 
the gentleman from Texas, Mr. Olson, for 5 minutes of 
questions.
    Mr. Olson. Thank you, Mr. Chairman, and I want to thank the 
witnesses for being here this morning. Senator Gorton left, so 
I can't talk about being through Evansville, Indiana. But, Mr. 
Lewis, I have been in Pittsburgh, and I have seen a great side 
of injustice and theft. As you know, I'm talking about the 1980 
AFC championship game in which Mike Renfro from the Houston 
Oilers scored a touchdown that the refs disallowed. But turning 
to other thefts, as we heard from all of you, state-sponsored 
terrorism, cyber espionage, is having a devastating effect on 
the American economy and the competitiveness of American 
companies. And the energy industry, important in my home state 
of Texas, is particularly vulnerable to cyberattacks. These 
attacks come in two forms, as you all know. One type is where a 
malicious actor could disrupt the physical operations by 
hacking into the industrial control systems which are used to 
control everything from the power grids to pipelines. The other 
cybersecurity threat to the energy industry, which is what this 
hearing is focused on, is the theft of intellectual property 
and proprietary information through cyber espionage. And the 
most malicious of these hackers are nation states, North Korea, 
Iran, Russia, and China.
    My question will focus on China this morning. Over the past 
couple of years, there have been several news reports of major 
American oil and gas companies being targeted by Chinese 
hackers. And yes, despite official denials we have been able to 
trace these attacks back to China. And some of these companies 
are headquartered in my hometown of Houston, Texas. The hackers 
are looking for, as you all know, sensitive information, such 
as long-term strategic plans, geological data showing locations 
of oil and gas reserves; even information on the bids for new 
drilling acreage.
    This type of information is worth billions of dollars, 
Senator Gorton's committee, $300 billion in lost revenue for 
Americans. This disclosure can severely hurt a company's 
competitiveness. My first question for you, Dr. Wortzel, would 
you say that energy is a strategic industry in the eyes of the 
Chinese government?
    Mr. Wortzel. It is absolutely a strategic industry, and 
they gather that business intelligence, the state does, for a 
couple of reasons. First of all, they are looking for 
technology because in some areas they are behind. Second, they 
are beginning to invest here. So they want to know where to 
invest. They want to know where they are going to get the most 
money for their investment, and where they can extract the most 
technology.
    Now, with respect--I think it is also important to remember 
that any time a critical, or a control system is penetrated, or 
a computer system is penetrated, it is also mapped. So it's 
only in terms--in time of conflict that that penetration may be 
used for a critical infrastructure attack because that would be 
an act of war. But the damage is done, and they know what to 
do.
    Mr. Olson. Yes, sir, and I know they have invested billions 
of dollars in the Eagle Ford shale play with American partners, 
and I suspect they are trying to get that technology, some of 
the drill bit technology, other things, hydraulic fracturing 
because they have shale plays in Western China. It's a very 
difficult terrain out there, different, you know, different 
geological structures, but it is pretty clear to me that they 
are involved with us trying to steal our technology as opposed 
to being good corporate partners.
    And my final question is for you, Mr. Lewis. We will put 
aside the 1980 AFC championship game, but how is the industry 
working together with government to combat cyber espionage?
    Mr. Lewis. This is one of the harder areas, and so people 
have been trying since 2000 to come up with a good model for 
what they call public-private partnership. And it looks like it 
has to vary from sector to sector. So for example, the banks, 
the telcos, they have a pretty good partnership with the 
government. Other sectors maybe the electrical sector, a little 
less strong partnership.
    So one of the things we need to do is maybe take a step 
back and say, what are the things that would let companies feel 
comfortable working with the government? What are the things 
that would let them feel comfortable sharing information or 
getting advice. And there has been some effort to do that, but 
we haven't done enough, and what we haven't done in particular 
is tailor it to each sector. What the concerns of an oil 
company are, are going to be different from the concerns of a 
software company. So maybe a new approach, focused a little bit 
more on sector-specific ideas.
    Mr. Olson. No one-size-fits-all, and I am out of time. I 
yield back. Thank you, sir.
    Mr. Murphy. The gentleman's time is expired. I now 
recognize the gentleman from Louisiana, Mr. Scalise, for 5 
minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
holding this hearing, and appreciate our panelists for 
participating. I know our committee has delved into this on a 
number of different fronts. There has been a lot of attempts 
over the last few years to try to move legislation through 
Congress to address this in different ways. And it's a serious 
problem. I know a few of you have pointed out the economic 
impact. There have been a lot of independent studies. Of 
course, the IP Commission report that Senator Gorton was part 
of, and really helped lead, estimates a $300 billion a year 
lost in our economy, and over 2 million jobs.
    And when you go out to places like Silicon Valley, which, 
you know, for the tough economic times we have right now, there 
are a lot of industries that are struggling, but one of the few 
areas that is a bright spot is the technology industry. And in 
large part, because so much of that intellectual property 
starts, is created, and has been innovated here in the United 
States, and it's being stolen. It is being stolen by countries 
like China. And we know about it. We sometimes can stop it, and 
often can't. And yet, it has a major impact on the economy, but 
it's kind of lost in the shadows because it is not always 
quantifiable.
    I want to ask you, Ms. Offutt. You talked a little bit 
about this. Is there a better way to gather data, a better way 
to know if that $300 billion number per year, is right? Is it 
way too low? You know, what are--is there a better way to find 
out just what is being stolen, and how it impacts our economy?
    Ms. Offutt. Well, I think the approach is necessarily at 
the sector or the firm level. That's the way we would aggregate 
to a number that told us something meaningful about the extent 
of what is at risk, what has been compromised, and then how it 
has been used to affect firm sales or consumer purchases. And 
that effort is quite data- and labor-intensive, but some of 
those data may become available as we intensify efforts to 
actually impose protection. Although it would probably always 
be the case that firms will be reluctant to divulge everything 
about compromise of their systems, for competitive reasons 
primarily.
    Mr. Scalise. Do you think the criminal enforcement is 
adequate? Do you think our Federal agencies that are tasked 
with enforcing these laws, are they doing enough? Does more 
need to be done? Is it that the law doesn't give them the kind 
of ability they need to go after the actors that are out there 
stealing all of this property? Anybody on the panel.
    Ms. Offutt. I defer to Mr. Lewis to answer that question.
    Mr. Scalise. Mr. Lewis, you can----
    Mr. Lewis. Let me give you an example that was startling, 
even to me. I was at a meeting recently with some FBI 
representatives from a major city, not in a State from any of 
you, I'm happy to say. They told me they won't take a case of 
cyber crime if the loss was less than $100 million.
    Mr. Scalise. What agency said this?
    Mr. Lewis. FBI.
    Mr. Scalise. Why is that?
    Mr. Lewis. Because there's just so many that they can't do 
them all, and so we have a real problem here. The issue is not 
in the United States. If you commit a crime through hacking in 
the United States, you will go to jail. The FBI is tremendously 
effective. If you commit a crime in Western Europe, or in 
Japan, or Australia, you will go to jail. The countries that 
observe the law do a good job. And so what we have seen is the 
hackers have moved, or the ones who have survived, live in 
countries that either support this, or don't have the good rule 
of law.
    So Brazil, Nigeria, you know about them, Russia, and China, 
they encourage them. That's our fundamental problem is if we 
could let the FBI off the leash, if they could get cooperation 
from these countries, this problem would be much more 
manageable. But you have places that don't find it interesting 
to cooperate.
    Mr. Scalise. And I will stick with you on this one, Dr. 
Lewis. We do hear from companies that say that there is a 
reluctance to share information with the Federal Government, 
you know, in some cases where that information can be helpful 
in at the deterring this theft, or kind of better protecting 
against it. What do you see as maybe an impediment, or what 
things can be done to better improve that ability to hopefully 
lead to a better process that stops some of the stuff from 
occurring in the first place?
    Mr. Lewis. That's one of the subjects of debate now, but 
you probably need better liability protection for the 
companies, and you probably need some guarantee that if you 
give information to the government, it won't go to every agency 
under the sun. You need some sort of limitation on it. Those 
are the two key areas there. Antitrust comes up as a problem as 
well if companies share information, they might run afoul of 
antitrust. So liability, antitrust, and data security are the 
three obstacles.
    Mr. Scalise. And I know those things--are things we are 
struggling with here, too. So I appreciate that. Thank you, Mr. 
Chairman. I yield back the balance of my time.
    Mr. Murphy. I thank the gentleman for yielding back. I also 
thank all of our panelists, and thank the members. What we have 
heard today is startling and enlightening on this issue that 
would have a huge impact upon our national security, but also 
our jobs, and at a time where we all want to see more Americans 
going to work, it is sad that this state of affairs exists, but 
we thank the information the panelists have given us today.
    I also want to ask for unanimous consent to enter into the 
record a letter from the Cybersecure America Coalition on 
today's hearing. I understand the minority has had a chance to 
review this letter and does not object, so hearing no 
objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Murphy. And I ask unanimous consent that the written 
opening statements of other members be introduced into the 
record. So without objection, the documents will be entered 
into the record. So in conclusion again, I thank the witnesses 
and members who participated at today's hearing. I remind 
Members that they have 10 business days to submit questions for 
the record, and I ask the witnesses all agree to respond to the 
questions. That concludes our hearing today, thank you.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 86391.043
    
    [GRAPHIC] [TIFF OMITTED] 86391.044
    
    [GRAPHIC] [TIFF OMITTED] 86391.045
    
    [GRAPHIC] [TIFF OMITTED] 86391.076
    
    [GRAPHIC] [TIFF OMITTED] 86391.077
    
    [GRAPHIC] [TIFF OMITTED] 86391.078
    
    [GRAPHIC] [TIFF OMITTED] 86391.046
    
    [GRAPHIC] [TIFF OMITTED] 86391.047
    
    [GRAPHIC] [TIFF OMITTED] 86391.048
    
    [GRAPHIC] [TIFF OMITTED] 86391.049
    
    [GRAPHIC] [TIFF OMITTED] 86391.050
    
    [GRAPHIC] [TIFF OMITTED] 86391.051
    
    [GRAPHIC] [TIFF OMITTED] 86391.052
    
    [GRAPHIC] [TIFF OMITTED] 86391.053
    
    [GRAPHIC] [TIFF OMITTED] 86391.054
    
    [GRAPHIC] [TIFF OMITTED] 86391.055
    
    [GRAPHIC] [TIFF OMITTED] 86391.056
    
    [GRAPHIC] [TIFF OMITTED] 86391.057
    
    [GRAPHIC] [TIFF OMITTED] 86391.058
    
    [GRAPHIC] [TIFF OMITTED] 86391.059
    
    [GRAPHIC] [TIFF OMITTED] 86391.060
    
    [GRAPHIC] [TIFF OMITTED] 86391.061
    
    [GRAPHIC] [TIFF OMITTED] 86391.062
    
    [GRAPHIC] [TIFF OMITTED] 86391.063
    
    [GRAPHIC] [TIFF OMITTED] 86391.064
    
    [GRAPHIC] [TIFF OMITTED] 86391.065
    
    [GRAPHIC] [TIFF OMITTED] 86391.066
    
    [GRAPHIC] [TIFF OMITTED] 86391.067
    
    [GRAPHIC] [TIFF OMITTED] 86391.068
    
    [GRAPHIC] [TIFF OMITTED] 86391.069
    
    [GRAPHIC] [TIFF OMITTED] 86391.070
    
    [GRAPHIC] [TIFF OMITTED] 86391.071
    
    [GRAPHIC] [TIFF OMITTED] 86391.072
    
    [GRAPHIC] [TIFF OMITTED] 86391.073
    
    [GRAPHIC] [TIFF OMITTED] 86391.074
    
    [GRAPHIC] [TIFF OMITTED] 86391.075
    

                                 <all>

</pre></body></html>
